No.20-1392
IN THE
SUPREME COURT OF THE UNITED STATES
JASON FOWLER and MICAH PERKINS,
Petitioners,
v.
BRITTANY IRISH, Individually and as
Personal Representative of the Estate of Kyle Hewitt,
and KIMBERLY IRISH.
Respondents.
PROOF OF SERVICE
I, Christopher C. Taub, do hereby swear that on this date, September 1, 2021, I have
served the enclosed Letter and Attachment concerning supplemental authority on each party to
the above proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above document in the United States mail properly
addressed to each of them and with first-class postage prepaid. The names and addresses of
those served are as follows:
Scott J. Lynch, Esq.
Lynch & Van Dyke, P.A.
261 Ash Street
P.O. Box 116
Lewiston ME 04243-0116
(207) 786-6641
slynch@)hlrvd.com
______________________________
CHRISTOPHER C. TAUB
Chief Deputy Attorney General
Office of the Attorney General
6 State House Station
Augusta, Maine 04333
On behalf of Petitioners Jason Fowler and Micah
Perkins

